AUDIT OF THE DATA INTEGRITY OF THE
  COMMERCIAL DRIVER’S LICENSE
   INFORMATION SYSTEM (CDLIS)
   Federal Motor Carrier Safety Administration


          Report Number: FI-2009-067
           Date Issued: July 30, 2009
           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of the Data                               Date:    July 30, 2009
           Integrity of the Commercial Driver’s License
           Information System
           Report Number: FI-2009-067

  From:    Rebecca C. Leng                                                    Reply to
                                                                              Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Acting Deputy Administrator,
           Federal Motor Carrier Safety Administration

           This report presents the results of our audit of the data integrity of the Commercial
           Driver’s License Information System (CDLIS), as required by the Safe,
           Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users
           (SAFETEA−LU). The Federal Motor Carrier Safety Administration (FMCSA), a
           component of the Department of Transportation (DOT), is responsible for
           oversight of CDLIS.

           SAFETEA−LU required that we perform a baseline audit that includes an
           assessment of the validity of the data in CDLIS and an analysis of the revenues
           derived from the use of CDLIS. SAFETEA−LU also required the Secretary to
           develop and publish a comprehensive national plan to modernize CDLIS that
           complies with applicable Federal information technology standards. Last summer,
           we issued a report presenting our analysis of derived revenues. 1 This report
           primarily addresses the validity of CDLIS data and security issues. Accordingly,
           we assessed (1) whether convictions received from the courts were recorded in a
           timely manner, (2) whether CDLIS and state department of motor vehicles (DMV)
           systems were adequately secured, and (3) the adequacy of contingency plans to
           ensure continued CDLIS service to DMVs following a disaster or other
           emergency.

           1
               Use of Income Derived from the Commercial Driver’s License Information System for Modernization,
               Report Number MH-2008-059, July 10, 2008.         OIG reports are available on our website:
               www.oig.dot.gov.
                                                                                                   2

To address our objectives, we tested a statistical sample of licensed commercial
drivers having convictions; and we visited nine state DMVs and interviewed key
officials concerning the sampled items, system security, and contingency planning.
Our work also included interviews with FMCSA personnel and contractors, as
well as reviews of technical documentation and departmental policy. We
conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Exhibit A provides further details of our scope and
methodology.

BACKGROUND

The Office of Inspector General (OIG) issued reports on the Commercial Driver’s
License (CDL) Program in 2000, 2002, and 2006. 2 The first report focused on the
disqualification of commercial drivers, noting that out-of-state convictions were
not transmitted to licensing states in a timely manner. This report also concluded
that states did not disqualify commercial drivers, as required by law, and granted
licenses to commercial drivers who posed a safety risk. The 2002 and 2006
reports focused predominantly on fraudulent licensing. Last year, as mentioned,
we reported on the use of income derived from CDLIS for system modernization,
as required by SAFETEA-LU. These reports contain recommendations to
improve CDL program oversight.

Congress found that one of the leading factors operating against commercial motor
vehicle safety was the possession of multiple licenses by commercial drivers.
Drivers with multiple licenses spread their traffic violations over a number of state
licenses to maintain a good-driver rating, regardless of the number of violations
they acquire in one or more states. In response to states’ concerns, the
Commercial Motor Vehicle Safety Act of 1986 (CMVSA) directed DOT to
establish minimum standards for licensing, testing, qualification, and classification
of commercial drivers. CMVSA also prohibited commercial drivers from
possessing more than one commercial license. The goal of CMVSA was to
improve highway safety by removing unsafe and unqualified drivers from the
highways, including ensuring that drivers of large trucks and buses were qualified
to operate those vehicles.

2
    Disqualifying Commercial Drivers, Report Number MH-2000-106, June 30, 2000; Improving Testing and
    Licensing of Commercial Drivers, Report Number MH-2002-093, May 8, 2002; and Oversight of the
    Commercial Driver’s License Program, Report Number MH-2006-037, February 7, 2006.
                                                                                                     3


CMVSA further required that the Secretary of Transportation establish a
nationwide information system for exchanging driver-related data among the
states. CDLIS, administered by the American Association of Motor Vehicle
Administrators (AAMVA) under a memorandum of understanding with FMCSA,
was developed to meet this mandate. CDLIS is a central database that stores each
commercial driver’s name, date of birth, Social Security number, and the
jurisdiction in which the driver is licensed (state of record). Currently, CDLIS
maintains this information for about 13 million active and inactive commercial
drivers. CDLIS does not contain driver histories itself; rather, it directs such
inquiries to the state of record. This history should contain all driving convictions
an applicant may have. Completeness of this information depends on the courts’
providing DMVs with accurate conviction data, and DMVs’ timely updating of
their driver histories.

State officials use CDLIS to connect with other state DMV systems to check an
applicant’s driving history prior to issuing a commercial driver’s license. In
addition, CDLIS is accessed by about 5,000 state inspectors to perform roadside
inspections; they gain access to CDLIS through a Web application system
developed by FMCSA called CDLIS-Access.


RESULTS IN BRIEF

FMCSA has taken measures to strengthen the CDL program, but additional action
is necessary to increase the safety of the Nation’s highways. First, DMVs are still
experiencing delays in posting convictions to their driver history records for
CDLIS users’ access. This continues to impede DMVs’ ability to suspend or
revoke problem drivers’ commercial-driving privileges in a timely manner.
Second, FMCSA and state DMVs have implemented password security measures
to prevent unauthorized access to driver records and privacy information.
However, deficiencies in security controls persist.           Specifically, system
                                        3
certification and accreditation reviews have not been completed, and states lag in
developing and implementing comprehensive security policies and procedures to
better protect DMV systems. Third, enhanced contingency planning and testing of
both CDLIS-Access and state DMV systems—to ensure uninterrupted CDL
services after an emergency—has not fully occurred. As a result, users of these
systems are vulnerable to service disruption. We are making a series of


3
    Certification and accreditation reviews seek to provide assurance that systems are using the proper
    security controls to ensure adequate protection of the data they maintain.
                                                                                                           4

recommendations, beginning on page 7, to improve the timeliness of conviction
posting, CDLIS system security, and contingency planning.


STATES ARE NOT POSTING COMMERCIAL DRIVER
CONVICTIONS IN A TIMELY MANNER

Our sample indicates that there are an estimated 500,000 active commercial
drivers with out-of-state convictions for the 50 states and the District of Columbia.
We focused on this group specifically because CDLIS is the primary method by
which conviction data are sent between states. Based on our sample (253
randomly-selected drivers with convictions across nine states), we project that 20
percent of the active CDL−holders (99,000) had convictions that were not posted
within the time frames established by FMCSA regulations. 4

While some states in our review have taken action in an attempt to mitigate
posting delays, such as automating the electronic interchange of data between
courts and DMV, delays in courts’ data submissions remain problematic.
According to state representatives, late receipt of convictions from courts prevents
them from posting conviction data within FMCSA’s time frames. As a result, at
the time of license issuance or renewal, DMVs may not have all information
available with which to make an informed decision on whether a license should be
granted, thereby possibly permitting an unqualified driver on the road. In
addition, without a complete driver conviction history, DMV systems would not
be able to provide information needed to effectively enforce Federal regulations to
ensure that a driver’s commercial license is suspended or revoked for a specific
traffic conviction.


CDLIS AND SOME STATE SYSTEMS ARE NOT ADEQUATELY
PROTECTING DRIVER DATA

Neither FMCSA nor AAMVA has entirely fulfilled its responsibility of securing
the systems that house conviction data on America’s commercial drivers—the

4
    Beginning on September 30, 2005, notification to another state of traffic violations was required within
    30 days of conviction. States must post a conviction to a driver history record within 10 days of the
    conviction if it occurred in the same state (49 C.F.R. § 384.225(c)), or within 10 days of receipt of the
    notice of conviction if it is from another state (49 C.F.R. § 384.209(c)). Information on some drivers
    within the sample was missing. For example, the date that the conviction record was added to DMV
    driver history was not always present, therefore restricting our analysis of timeliness. We estimate with
    90-percent confidence that 15 percent of current CDL-holders have missing information in CDLIS, or
    about 75,000 out of an estimated 500,000. (Margin of error for estimates is +/-5 percentage points for
    current CDL-holders with out-of-state convictions, and +/–14 percentage points for not posting current
    CDL-holder convictions in a timely manner and for current CDL-holders with missing information.)
                                                                                                       5

individuals entrusted with the safe conveyance of our trucks and buses. In
addition, some of the states we visited have likewise not entirely fulfilled this
responsibility.

FMCSA has not enforced the CDLIS-Access requirement that systems be
accredited as adequately secured, nor has it included CDLIS-Access in its systems
inventory. The Office of Management and Budget (OMB) requires that systems
be inventoried and authorized (i.e., accredited) as adequately secured before
beginning or significantly changing system processing, and reauthorized at least
once every 3 years. 5 Yet the contractor managing CDLIS-Access—used by state
inspectors and FMCSA personnel to access state DMV commercial-driver
records—was unaware that this requirement existed. In addition, we were unable
to locate any contract provision that required the contractor to certify or accredit
CDLIS-Access. We found two weaknesses in CDLIS-Access that could have
been identified in the accreditation process: (1) user names and passwords were
being transmitted without encryption, and (2) the Web site was vulnerable to
certain hacker attacks. 6 As a result, CDLIS-Access has increased exposure to
intrusion.

Further, FMCSA has recognized the need to implement Federal security standards
for CDLIS and has signed a memorandum of understanding with AAMVA (dated
June 2008) requiring certification and accreditation of the system. However, no
completion date was specified in the agreement, and to date, certification and
accreditation have not been completed. Until completion of proper certification
and accreditation, FMCSA will continue to lack a crucial management control to
ensure that systems are properly assessed for security risk, have been
independently tested, and that weaknesses have been identified and sufficiently
mitigated. According to FMCSA management, they are working on the
certification.

On the state level, for five of the nine DMVs in our sample, security policies were
either nonexistent or had not been finalized. Federal laws, regulations, and
guidance provide for the development of security policies to protect the
confidentiality, integrity, and availability of data. While recognizing state
sovereignty and that Federal requirements are not mandatory upon state DMVs, it
would be prudent for states to develop and enforce an information security
program. State officials reported that they had not developed comprehensive
security policies due to a lack of resources, changes in separation of system
responsibility between the state and DMV, and the absence of an established state-
level approach to security requirements. Regardless, without adequate and
5
    Security of Federal Automated Information Resources, Circular A-130, Appendix III, February 8, 1996.
6
    We shared specifics of these vulnerabilities with FMCSA during the audit to facilitate its corrective
    actions.
                                                                                                 6

comprehensive information security policies, states cannot establish or maintain an
effective information security program that provides direction to users, enforces
compliance, and ensures that security risks are reduced in a cost-effective manner.



FMCSA AND STATE DMVs LACK COMPREHENSIVE
CONTINGENCY PLANS AND EVIDENCE OF TESTING

FMCSA does not have a contingency plan for CDLIS-Access, nor has it ever
conducted a disaster recovery exercise for this system. According to the National
Institute of Standards and Technology (NIST), effective contingency planning and
testing are essential to mitigating the risk of system and service unavailability. 7
While FMCSA management cites funding constraints, it is incumbent upon
managers to allocate resources needed to implement departmental requirements.
Until a contingency plan has been developed and tested, no assurance exists that
users of this system—about 5,000 state roadside inspectors and 900 FMCSA
personnel—will have timely access to state DMV CDL records in the event of a
disaster.

Similarly, of the nine sample states reviewed, five could not provide contingency
plan documentation or evidence that testing had been performed to ensure that
their licensing systems could be recovered following a disaster. DMV officials
cited prioritization of needs, changes in separation of system responsibility
between state and motor vehicle administrations, and lack of standardized state
requirements as reasons. In addition, according to these officials, the loss of use
of their systems would have limited impact on their operations because they could
revert to manual processing or even suspend issuance of licenses. Still, without
viable and tested contingency plans, states may be unable to provide timely and
complete conviction data to other states in the event of a severe or extended
disruption, prolonging the period during which unsafe drivers may remain on the
road.


CONCLUSIONS

Safety is the top priority of the Department of Transportation. Ensuring that
convictions are posted in a timely manner would improve safety by enabling or
facilitating timely removal of problem drivers from our highways. This will be
more successful as CDLIS and DMV systems are better secured and system

7
    Contingency Planning Guide for Information Technology Systems, Special Publication 800-34, June
    2002.
                                                                               7

contingency planning and testing become realities. Yet improving safety must be
a cooperative venture between and among all stakeholders, including states,
courts, the Federal Government, and partners such as AAMVA. And while efforts
to improve safety through better oversight and coordination continue as CDLIS is
modernized, it will be important to balance such actions against the necessity of
securing driver privacy.


RECOMMENDATIONS

We recommend that the Acting Deputy Administrator, FMCSA, direct the
Associate Administrator for Enforcement and Program Delivery to:

Timeliness of Posting of Convictions:

   1. Require action plans from states to address tardiness in posting of
      convictions. Such plans should identify specific state problems in dealing
      with the courts, suggest solutions to these problems, and time frames by
      which the problems will be resolved or mitigated.

Security Policies and Procedures:

   2. Complete the certification and accreditation of the CDLIS-Access system
      and add it to the FMCSA and DOT system inventories.

   3. Implement, in conjunction with the FMCSA Chief Information Officer
      (CIO), a proper encryption mechanism on CDLIS-Access to protect user
      credentials while data are in transit.

   4. Correct, in conjunction with the FMCSA CIO, the intrusion vulnerabilities
      in CDLIS-Access.

   5. Require AAMVA to complete the certification and accreditation of CDLIS
      as required by the memorandum of understanding between FMCSA and
      AAMVA.

   6. Promote and communicate to DMVs the need to establish security policies
      and procedures for safeguarding CDL information as part of CDLIS
      modernization.

Contingency Planning and Testing:

   7. Prepare, in conjunction with the FMCSA CIO, contingency plans for
      CDLIS-Access, in accordance with OMB and NIST guidance.
                                                                                 8

      8. Perform, in conjunction with the FMCSA CIO, disaster recovery testing of
         the CDLIS-Access system.

      9. Promote and communicate to DMVs the need to perform periodic
         contingency testing for their licensing systems.



AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA with our draft report on June 8, 2009, and received its
response on July 22, 2009. FMCSA concurred with all nine recommendations
and discussed appropriate planned actions and target completion dates. FMCSA’s
response is included in its entirety in Appendix A.



ACTIONS REQUIRED
Management actions taken and planned are responsive to our recommendations,
and are considered resolved subject to follow-up provisions in DOT Order
8000.1C.

We appreciate the courtesies and cooperation of representatives from the Federal
Motor Carrier Safety Administration, and state DMV personnel who participated
during this audit. If you have any questions concerning this report, please call me
at (202) 366-1407 or Louis King, Program Director, at (202) 366-4350.

                                          #


cc:      Chief Information Officer, DOT
         Martin Gertel, M-1
         Karen Lynch, MC-TRS
                                                                                                                   9

EXHIBIT A. SCOPE AND METHODOLOGY
CDLIS is an archival database containing Social Security numbers, dates of birth,
names, drivers’ license numbers, states of record, and aliases for about 13 million
commercial drivers. These records identify active or expired commercial driver’s
license (CDL)-holders, drivers applying for CDL licenses, and drivers convicted
of driving a commercial vehicle without a valid commercial driver’s license. In
order to identify, to the extent possible, the number of individuals holding an
active CDL who also had one or more traffic convictions, we matched CDLIS
drivers to the National Driver Register (NDR). 8 From this match, we selected a
statistically valid sample in two stages. In stage 1 we selected nine out of 51
jurisdictions (the 50 states plus the District of Columbia) and in stage 2 we
selected 253 out of 804,523 commercial drivers with out-of-state convictions. The
nine states selected were California, Massachusetts, Mississippi, Missouri, New
Jersey, New York, Oklahoma, Tennessee, and Texas. The figure depicts this
process.

    Figure. Selection of Commercial Drivers with Convictions from
                            Other States



              NDR

                               Driver                    Drivers with
                                                                                            Drivers with
                               Extract                   out-of-state
                                                                                            out-of-state
                             2.6 million                 convictions                                    a
             CDLIS                                                                          convictions
                                                          804,523
                                                                                                253
            13 million

             Data Match                              Out-of-State                              Sample
          (SSN, Name, DOB)                         Conviction Match                           Selection
                                                                                              (9 states)
            CDLIS data are                  An additional match is performed
         matched against NDR               to identify drivers with out-of-state   We statistically selected 253
         data to identify drivers                       convictions.                drivers out of the 804,523
            with a potential                                                                  drivers
               conviction.

    a
        Drivers with out-of-state convictions were chosen specifically as CDLIS is the primary method of
        exchanging conviction data between states. (Source: OIG)



We made site visits to the nine states from May through July 2008 to determine
the timeliness of processing conviction data for each driver in our sample. To
address timeliness, we analyzed all convictions for each driver’s history record
from 2005 through 2008 and compared the time it took from the date of conviction

8
    NDR is a central register that enables state DMV officials to exchange information on problem drivers in
    each state.


Exhibit A: Scope and Methodology
                                                                                  10


reported by the court to the date that the conviction was posted to the driver’s
record by the DMV. We conducted detailed observations, discussions, and
reviews of policies and practices for the processing of traffic convictions,
transmission of information to other states, problem resolution, and security
controls established for protection of driver data. In each of the states we also
compared specific Federal CDL regulations with the states’ internal policies and
practices for processing conviction data.

To assess the integrity of the state’s system, we reviewed the CDL oversight
practices, focusing on those relating to computer issues, by interviewing FMCSA
officials and state CDL program officials at state offices, and reviewing
documentation including CDL program reviews, correspondence between FMCSA
and state officials, status reports from states to FMCSA on unresolved compliance
issues, and other related documentation. Additionally, we assessed the integrity of
the DMV system controls in processing the convictions by specifically focusing
on the translation of state-of-record conviction codes to uniform Federal codes,
and ensuring that this was being done accurately.

To address our objective on security, we used NIST security guidance as our
baseline for best practices. While recognizing state sovereignty and that Federal
requirements (including NIST’s) are not mandatory upon state DMVs, it would be
prudent for states to develop and enforce an information security program. We
reviewed the state’s information system security control policies and procedures;
observed controls in operation (which included selecting a judgmental sample of
items); and held discussions with officials at the state data center and motor
vehicle administration to determine whether controls were in place, adequately
designed, and operating effectively. Finally, we reviewed the information security
practices at the contractor sites to assess whether they were consistent with Federal
certification and accreditation requirements.

The audit work was performed between December 2007 and July 2008. We
conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




Exhibit A: Scope and Methodology
                                                                       11

EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
Name                               Title

Louis C. King                      Program Director

Michael Marshlick                  Project Manager

Michael P. Fruitman                Writer-Editor

Atul Darooka                       Information Technology Specialist

Anthony Cincotta                   Information Technology Specialist

Martha Morrobel                    Information Technology Specialist




Exhibit B: Major Contributors to this Report
                                                                                                           12

           APPENDIX A. MANAGEMENT RESPONSE




           Memorandum
           U.S. Department
           Of Transportation

           Federal Motor Carrier
           Safety Administration



Subject:   INFORMATION: Response to the OIG Draft Report            Date:
                                                                               JUL 22 2009
           “Audit of the Data Integrity of the Commercial
           Driver’s License Information System (CDLIS),”
           08F3003F000

From                                                                Reply      MC-PRS
                                                                    to
           Rose A. McMurray                                         Attn: of
           Acting Deputy Administrator

To:        Rebecca C. Leng
           Assistant Inspector General for Financial and
            Information Technology Audits

           The Federal Motor Carrier Safety Administration (FMCSA) reviewed the Office of Inspector
           General (OIG) draft report “Audit of the Data Integrity of the Commercial Driver’s License
           Information System (CDLIS)” and concurs with the recommendations. The commercial driver’s
           license (CDL) program supports the Agency’s mission by ensuring that only qualified and safe
           drivers operate commercial motor vehicles and continuously identifies the most effective
           strategies for improving driver safety. Based on the 2008 statistics recently released by the
           National Highway Traffic Safety Administration, the number of overall traffic fatalities reached
           its lowest level since 1961. Similarly, an early estimate of motor vehicle fatalities for the first
           quarter of 2009 shows that this favorable trend has continued into the current fiscal year. Large
           truck fatalities were down more than 12 percent in 2008 from 2007, and the large truck fatality
           rate per total vehicle miles of travel reached the lowest level ever recorded.

           The FMCSA implemented several measures to strengthen the CDL program, and additional
           refinements related to CDLIS data, security, and modernization are in progress. It should be
           noted, however, that the Agency has limited authority to mandate Federal information technology
           security standards for the States. Further, the Agency must coordinate with 51 jurisdictions that
           do not have uniform traffic violation standards, unified court systems, standard electronic
           reporting methods, or statutes mandating the 10-day requirement for reporting CDL conviction
           data. The Agency is continuing to work with the States to address these challenges and
           strengthen CDL program oversight.

           RECOMMENDATIONS AND RESPONSES


           Appendix A: Management Response
                                                                                                13



RECOMMENDATION 1: Require action plans from states to address tardiness in posting
of convictions. Such plans should identify specific state problems in dealing with the courts,
suggest solutions to these problems, and time frames by which the problems will be resolved
or mitigated.

RESPONSE: Concur. As part of FMCSA’s comprehensive CDL Compliance Reviews, States
are required to submit corrective action plans to the Agency to address challenges, including
meeting the timeliness requirement. Beginning in FY 2010, the Agency will provide each State
with a quarterly report reflecting its compliance with the timeliness requirement, and a
comparison with the other States.

The Agency will also communicate to States the importance of achieving compliance with the
timeliness requirement during the CDL Information Technology (IT) Users Workshop, scheduled
for September 2009, and the CDL Coordinators Meeting, tentatively scheduled for February
2010. Written guidance is being developed, and will be available in September 2009 on the
FMCSA and American Association of Motor Vehicle Administrators (AAMVA) web sites.

RECOMMENDATION 2: Complete the certification and accreditation of the CDLIS-
Access system and add it to the FMCSA and DOT system inventories.

RESPONSE: Concur. The Agency is currently reviewing the certification and accreditation
(C&A) package for the CDLIS-Access system, which is hosted by a contractor, and anticipates
adding it to the FMCSA system inventories by the end of FY 2009. The FMCSA informed the
contractor that the CDLIS-Access system will be monitored by FMCSA, and must meet the
requirements of the Office of Management and Budget Circular Number A-130, Management of
Federal Information Resources.

RECOMMENDATION 3: Implement, in conjunction with the FMCSA Chief Information
Officer (CIO), a proper encryption mechanism on CDLIS-Access to protect user credentials
while data are in transit.

RESPONSE: Concur. The FMCSA directed its contractor to implement a proper encryption
mechanism to protect user credentials. The contractor has initiated the purchase of a third-party
digital certificate to meet encryption requirements, and will reconfigure the information system to
utilize the protocol for encrypting web authentication traffic by the end of FY 2009.

RECOMMENDATION 4: Correct, in conjunction with the FMCSA CIO, the intrusion
vulnerabilities in CDLIS-Access.

RESPONSE: Concur. By incorporating CDLIS-Access into the FMCSA Information System
Continuous Monitoring Program, FMCSA’s contractor will be required to report to FMCSA the
status of remediation activities on emerging cyber threats and vulnerabilities. By the end of FY
2010, FMCSA will initiate weekly application and vulnerability scans on the CDLIS-Access
information system. The FMCSA Information System Security Officer (ISSO) and the contractor
will review scan result reports and deploy recommended fixes.

RECOMMENDATION 5: Require AAMVA to complete the certification and accreditation
of CDLIS as required by the memorandum of understanding between FMCSA and
AAMVA.



Appendix A: Management Response
                                                                                             14


RESPONSE: Concur. The FMCSA will continue to work with AAMVA to ensure that C&A
activities are accomplished in a timely manner. The AAMVA is currently on target to complete
the C&A of CDLIS by the end of calendar year 2009. Additionally, FMCSA and AAMVA have
recently agreed on an independent certification agent that will perform testing in accordance
with commercial and Federal standards. The certification agent will evaluate the operational,
management, and technical security requirements to determine the extent to which the controls
are properly implemented, are operating as intended, and meet the system security requirements.

RECOMMENDATION 6: Promote and communicate to DMVs the need to establish
security policies and procedures for safeguarding CDL information as part of CDLIS
modernization.

RESPONSE: Concur. The FMCSA CDL Division, FMCSA ISSO and AAMVA’s IT Security
Officer will develop an action plan that promotes safeguarding CDL data as part of the CDLIS
Modernization communication plan. The Agency anticipates completing the action plan by the
end of calendar year 2009. Information developed as a result of the plan will be posted on
FMCSA and AAMVA web sites. The Agency will also share with the States the importance of
safeguarding CDL information as part of the CDL IT Users Workshop, scheduled for September
2009, and the CDL Coordinators Meeting, tentatively scheduled for February 2010.

RECOMMENDATION 7: Prepare, in conjunction with the FMCSA CIO, contingency
plans for CDLIS-Access, in accordance with OMB and NIST guidance.

RESPONSE: Concur. Once CDLIS-Access is fully accredited, FMCSA will incorporate the
system into its FISMA-compliant Information System Continuous Monitoring Program. The
program, which operates in accordance with OMB and NIST guidance, includes continuity of
operations, disaster recovery, and contingency planning. As part of the program, a contingency
plan will be developed in accordance with scheduled security reporting, as documented in the
Plan of Action and Milestones (POA&M). The POA&M will identify the tasks that must be
accomplished, the resources required to perform these tasks, the milestones needed to achieve
these tasks, and the scheduled completion dates for the milestones. FMCSA will ensure a
contingency plan is prepared for CDLIS-Access in accordance with the POA&M and anticipates
completing the plan, contingent on resources and agency priorities, by the end of FY 2010.

RECOMMENDATION 8: Perform, in conjunction with the FMCSA CIO, disaster
recovery testing of the CDLIS-Access system.

RESPONSE: Concur. Once CDLIS-Access is fully accredited, FMCSA will work with the
CDLIS-Access contractor and AAMVA to ensure that viable disaster recovery plans are
maintained and, if necessary, updated in order to support the mission objectives during an
unforeseen outage. This includes reviewing contingency plans and participating in scheduled
disaster recovery contingency plan test exercises. Accordingly, FMCSA will perform disaster
recovery testing of the CDLIS-Access system, contingent on resources and agency priorities, by
the end of FY 2010.

RECOMMENDATION 9: Promote and communicate to DMVs the need to perform
periodic contingency testing for their licensing systems.

RESPONSE: Concur. The FMCSA ISSO and the CDL Division will develop guidance for
contingency testing of State licensing systems as part of the CDLIS Modernization
communication plan. The guidance will inform States of best practices, and will be presented at


Appendix A: Management Response
                                                                                                  15


such forums as the CDL IT Users Workshop scheduled for September 2009 and the CDL
Coordinators Meeting, tentatively scheduled for February 2010. Written documentation
associated with this guidance and industry best practices for contingency planning and testing
will be made available on the FMCSA and AAMVA web sites.

The FMCSA appreciates the OIG’s efforts which assist FMCSA in fulfilling its transportation
safety goals. If you need additional information or clarification, please do not hesitate to contact
me, or Jeffrey K. Miller, Chief, Strategic Planning and Program Evaluation Division, 202-366-
1258.




Appendix A: Management Response
